Memorandum from the Office of the Inspector General



September 25, 2007

Robert J. Beecken, PAF 1A-DRK

FINAL REPORT – INSPECTION 2007-11235 – REVIEW OF PARADISE FOSSIL PLANT
RECEIPTS



At your request, we initiated a limited scope review to determine if goods1 ordered for
Paradise Fossil Plant (PAF) were received, as ordered, and properly recorded in the
inventory system of record, PassPort. In summary, our review of selected receipts at PAF
found the goods ordered for PAF were generally received, as ordered, and properly
recorded in PassPort.

BACKGROUND

We previously performed a review (Inspection 2007-10983) to assess the procedures and
key control activities used to track and account for tools at the PAF. Our review of PAF
tools found (1) no policies and procedures exist for tools at PAF, (2) tools can be ordered
without management approval, and (3) controls in the PAF and contractor tool rooms are
inadequate to properly track and account for tools. Management agreed with our findings
and has implemented or plans to implement corrective actions.

At the conclusion of Inspection 2007-10983, the Vice President, PAF, requested that we
perform an unannounced site visit to determine if selected goods were received, as
ordered, and properly recorded in PassPort. The requested time period for the review was
September 2007, before the scheduled fall outage. This review was initiated as a result of
the request.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our inspection was to determine if ordered goods were received and
properly recorded in PassPort at PAF. To achieve our objective, we:

•      Interviewed site personnel to identify key processes and controls over the receiving of
       goods at PAF.




1
    For the purpose of this report, “goods” is defined as tools, materials, and equipment.
Robert J. Beecken
Page 2
September 25, 2007


•   Selected a sample of (1) 60 purchase order line items that were to be received prior to
    our PAF site visit and (2) 18 purchase order line items that were to be received during
    our visit to PAF for verification. Specifically, we verified that the appropriate items
    were received and on-hand, and/or distribution of the received goods was documented
    within PassPort or by signature of the ordering personnel on receiving documentation.

    -   To obtain the data for our sample, we queried files from the PassPort data
        warehouse, as well as the PassPort production tables. Our samples were selected
        using receipt, order line status, and facility code data. We attempted to select
        items that were received on dates closest to our visit to ensure review of items
        recently received and not items that were on-hand for an extended time period.

Our scope included receipts at PAF from September 7, 2007, through September 12,
2007. This inspection was conducted in accordance with the “Quality Standards for
Inspections.”

OBSERVATIONS

We found the PAF receipts/goods selected for review appear to have been received and
properly recorded in PassPort. Specifically:

•   For 75 receipts for goods, we verified that the appropriate items were received and on-
    hand, and/or distribution of the received goods was documented within PassPort or by
    signature of the ordering personnel on receiving documentation. We noted only one
    instance where the quantity on-hand differed. For this item we found 190 lbs of the
    material on-hand rather than the 180 lbs noted in PassPort. Based on the purchase
    order base price amount recorded in PassPort for this Catalog Identification Number
    (CAT ID), the resulting dollar variance would be $24.20.

•   For three receipts, which were for non-stock items with a CAT ID, the PAF personnel
    who ordered the items were contacted and verified receipt of the items as ordered.
    Per PAF personnel, for non-stocked items with assigned CAT IDs, an issue ticket is
    automatically generated by PassPort and no signature is required on receiving
    documents to document that the item has been delivered to the ordering individual.

Based on the results of our testing, this inspection is being issued for informational
purposes only; therefore, no response is necessary.

                       -      -       -       -       -      -       -

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information that you recommend be withheld. If you have any questions
    Robert J. Beecken
    Page 3
    September 25, 2007


    or wish to discuss our observations, please contact Rick C. Underwood, Project Manager,
    at (423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
    at (423) 751-7821. We appreciate the courtesy and cooperation received from your staff
    during the inspection.




For Ben R. Wagner
    Deputy Inspector General
    ET 3C-K

    RCU:BKA
    Attachment
    cc (Attachment):
          Tom D. Kilgore, WT 7B-K
          John E. Long, Jr., WT 7B-K
          Richard W. Moore, ET 4C-K
          Emily J. Reynolds, OCP 1L-NST
          Preston D. Swafford, LP 6A-C
          OIG File No: 2007-11235
